I

r•

MEMORANDUM
SUPREME COURT, SUFFOLK COUNTY
THE PEOPLE OF THE STATE OF NEW YORK
V.

CASE NO. 02464-2009
HON. RICHARD AMBRO
PART 5

JOHN LICAUSI,
Defendant.
Hon. Timothy D. Sini, Esq.

Suffolk County District Attorney
By: Elena Tomaro, Esq.
Assistant District Attorney
Criminal Courts Building
200 Center Drive
Riverhead, NY 11901

John Licausi, DIN 10A5172
Defendant Pro Se
Eastern Correctional Facility
P.O. Box 338
Naponach, NY 12458-0338

Defendant, pursuant to Criminal Procedure Law §440.10 [f] and [g], 440.20 and 440.30
[5], seeks to vacate his judgment of conviction and sentence rendered on October 21, 2010.
Although unclear, it appears defendant’s motion contends that 1) he has discovered new
evidence, including a) a 2016 decision finding there existed triable issues of fact concerning
whether Officer Bogliole’s pursuit of defendant was conducted in reckless disregard for the
safety of others as well as a subsequent jury verdict finding civil liability based upon the officer’s
conduct, b) that Officer Bogliole was not authorized to engage in the pursuit of defendant’s
vehicle, c) the 2019 criminal conviction of former District Attorney of Suffolk County Thomas
Spota regarding his involvement in a case wholly unrelated to defendant’s 2010 conviction, as
well as d) defendant’s acquittal on the count of assault in the second degree evidencing that
Bogliole engaged in misconduct and filed a false report and e) additional proof of Bogliole’s
motive to fabricate testimony, each of which, if admitted at trial, would have created a
probability that the verdict would have been more favorable to defendant, 2) defendant was
denied his right to a fair trial due to the trial judge’s failure to recuse himself and the District
Attorney’s failure to seek a special prosecutor, 3) defendant was prejudiced by the Court’s failure
to dismiss the original indictment upon the filing of a superceding indictment, 4) the Court
committed an O'Rama (People v. O’Rama, 78 NY2d 270 [1991]) violation concerning a
requested readback of Officer Bogliole’s testimony, 5) the Court erred when denying defendant’s
Batson challenge, 6) the Court failed to determine whether there was a quorum present in the
grand jury that indicted defendant, 7) the prosecution tampered with and/or destroyed the Citgo
filling station video, the Lowell Mechanical surveillance video, and the GPS device located

1

PEOPLE V LICAUSI

Indictment No.: 02464-2009
Page 2
inside Officer Bogliole’s vehicle, 8) toxicology evidence was improperly received in evidence, 9)
defendant was denied the effective assistance of counsel due to counsel’s failure to seek a change
of venue for the trial, 10) defendant was denied his right to call a toxicologist on his own behalf,
11) defendant’s convictions for aggravated vehicular homicide and manslaughter in the second
degree were redundant, 12) defendant should have received a justification charge, 13)
. defendant’s judgment should be vacated based upon the theory of third-party culpability (as
evidenced by newly discovered evidence, see 1-a) and finally, 14) the trial jury was not properly
instructed on the element of recklessness under count one of the indictment charging Aggravated
Vehicular Homicide. For the following reasons defendant’s motion is denied.
CPL § 440.10 [f|
CPL § 440.10 [ 1 ] [fj provides that a court may vacate a judgment upon the ground that
“[ijmporper and prejudicial conduct not appearing in the record occurred during a trial resulting
in the judgment which conduct, if it had appeared in the record, would have required a reversal of
the judgment upon an appeal therefrom.”
A corollary of CPL § 440.10 [f] is CPL §440.10 [2] [c] which provides that “the court
must deny a motion to vacate a judgment when... [although sufficient facts appear on the record
of the proceedings underlying the judgment to have permitted, upon appeal from such judgment,
. adequate review of the ground or issue raised upon the motion, no such appellate review or
determination occurred owing to the defendant's unjustifiable failure to ... raise such ground or
issue upon an appeal actually perfected by him.”
Furthermore, CPL §440.10[3][a] provides that “the court may deny a motion to vacate a
judgment when, [although facts in support of the ground or issue raised upon the motion could
with due diligence by the defendant have readily been made to appear on the record in a manner
providing adequate basis for review of such ground or issue upon an appeal from the judgment,
the defendant unjustifiably failed to adduce such matter prior to sentence and the ground or issue
in question was not subsequently determined upon appeal.”
Defendant’s points 1-b, 1-d, 1-e, 2 through 12 and 14, are all record based and to the
extent these arguments were not raised on defendant’s appeal (a review of defendant’s appellate
briefs indicates that perhaps other than points 2 and 7, this is the case), his motion to vacate his
judgment of conviction on these points is denied. CPL §440.10[2][c].
To the extent any of these points were raised on defendant’s appeal (see points 2 and 7

j

PEOPLE V LICAUSI

Indictment No.: 02464-2009
Page 3
and defendant’s Pro Se Supplemental Brief, Points II and III), clearly they were considered and
rejected by the Appellate Division (People v. Licausi, 122 AD3d 771 [2nd Dep’t. 2014]) and,
therefore, are similarly denied. CPL § 440.10 [2] [a].
Moreover, in the event these arguments contained in points 1-b, 1-d, 1-e, 2 through 12
and 14 did not fully appear on the record, they are of a type that with due diligence could have
been readily made to appear on the record in a manner providing an adequate basis for appellate
review and absent any justification for that failure (as here), the Court, in it’s discretion, denies
defendant’s motion to vacate his judgment of conviction based on these arguments. CPL
§440.10[3][a].
Furthermore, CPL §440.30[l][a] provides, in part, that a “motion to vacate a judgment
pursuant to section 440.10 of this article ...must be made in writing and upon reasonable notice to
the people. Upon the motion, a defendant who is in a position adequately to raise more than one
ground should raise every such ground upon which he or she intends to challenge the judgment
■ or sentence.” §440.10[3][c] provides further that “the court may deny a motion to vacate a
judgment when, [u]pon a previous motion made pursuant to this section, the defendant was in a
position adequately to raise the ground or issue underlying the present motion but did not do so.”
This 440 motion is defendant’s third collateral attack upon this judgment of Conviction. Clearly,
he was in a position to adequately raise the issues advanced in points 1 -b, 1 -d, 1 -e, 2 through 12
and 14 in his first two motions (as well as in his Pro Se Supplemental Brief) but failed to do so.
Defendant offers no justification for that failure which, almost 10 years after the entry of
judgment, is critically important. People v. Demis, 141 AD3d 730, 733 (2nd Dep’t. 2016),
People v. Huggins 130 AD3d 1069 (2nd Dep’t. 2015), People v. Cochrane, 27 AD3d 659 (2nd
Dep’t. 2006), People v. Degondea, 3 AD3d 148, 162 (lsl Dep’t. 2003). Thus, on this basis, the
Court, in its discretion, similarly denies defendant’s motion to vacate the judgment based upon
those arguments.
Finally, CPL § 440.10 [3] [b] provides in part that “[notwithstanding the provisions of
subdivision one, the court may deny a motion to vacate a judgment when...[t]he ground or issue
raised upon the motion was previously determined on the merits upon a prior motion or
proceeding in a court of this state, other than an appeal from the judgment, or upon a motion or
proceeding in a federal court.” The grounds or issues raised by defendant herein that were
previously determined on the merits as set forth in the People’s Memorandum of Law pages 2330, are similarly denied for this additional reason.

J

PEOPLE V LIGAUSI

Indictment No.: 02464-2009
Page 4
CPL § 440.10 [g]
CPL § 440.10 [ 1 ] [g] provides that a court may vacate a judgment on the grounds that
“[n]ew evidence has been discovered since the entry of a judgment based upon a verdict of guilty
after trial, which could not have been produced by the defendant at the trial even with due
diligence on his part and which is of such character as to create a probability that had such
evidence been received at the trial the verdict would have been more favorable to the defendant;
provided that a motion based upon such ground must be made with due diligence after the
discoveiy of such alleged new evidence.”
To be considered newly discovered evidence for purposes of a CPL § 440.10 [1] [g]
motion, the evidence must meet six criteria: "1. It must be such as will probably change the result
if a new trial is granted; 2. It must have been discovered since the trial; 3. It must be such as
could have not been discovered before the trial by the exercise of due diligence; 4. It must be
material to the issue; 5. It must not be cumulative to the former issue; and 6. It must not be
merely impeaching or contradicting the former evidence". People v. Balart, 107 AD2d 811, 81415 (2nd Dep’t. 1985), quoting People v. Scdemi, 309 NY 208, 216 (1955).
CPL § 440.30 [4] [b] provides that the court may deny a 440.10 or 440.20 motion without
conducting a hearing if the ‘‘motion is based upon the existence or occurrence of facts and the
moving papers do not contain sworn allegations substantiating or tending to substantiate all the
essential facts...”
Missing from defendant’s sworn allegations concerning points 1-a through e is a more
detailed description of the proffered evidence to establish its admissibility, its expected
evidentiary impact, whether the proffered evidence is merely cumulative to trial evidence and
whether such evidence is relevant for purposes beyond impeachment, sufficient to satisfy most or
all of the first, fourth, fifth and sixth criteria described in Balan, supra.
Consequently, points 1-a through e are, in the discretion of the Court, denied.
CPL § 440.20
CPL § 440.20 provides that a court may “set aside [a] sentence upon the ground that it
was unauthorized, illegally imposed or otherwise invalid as a matter of law.” In this regard,

■)

PEOPLE V LICAUSI

Indictment No.: 02464-2009
Page 5
defendant states, that “[t]he defendant’s culpability should be mitigated because Suffolk County
Police Officer Bogliole was found ‘intentionally reckless’, knowing harm would follow.”
Defendant continues that his “primary claim is that his culpability should be mitigated in the
interest of justice, and a lessor included offense should be applied and a sentence reduction based
on Third-Party Police Culpability” that reveals the complex extraordinary circumstances.”
Though initially citing CPL § 440.20, defendant appears to rely on the above referenced
summary judgment decision and subsequent civil jury verdict1 (see points 1-a and 13) to establish
third-party police culpability and thereby seeks the vacatur of the judgment pertaining to one or
more of his crimes of conviction. Thereafter, defendant apparently intends to plead guilty to a
lessor included offense(s) to obtain a reduced sentence. However, this dubious collateral attack
on the validity of the judgment by relying on newly discovered evidence of third-party culpability
is properly brought pursuant to CPL § 440.10 [1] [g] and as discussed above, relief on this basis
is denied.
Indeed, to give rise to criminal liability, defendant’s conduct need not have been the sole
cause of Mr. Foster’s death, but rather just “an actual contributory cause of the death” which
“was a reasonably foreseeable result of the conduct.” See, Criminal Jury Instruction (CJI)
“Cause of Death.” As the Court of Appeals has noted, “the mere fact that other persons share
responsibility for plaintiff’s harm does not absolve defendant from liability because there may be
more than one proximate cause of an injury. It is only where the intervening act is extraordinary
under the circumstances, not foreseeable in the normal course of events, or independent of or far
removed from the defendant’s conduct, that it may possibly break the causal nexus.” Haiti v.
Jamison, 28 NY3d 524, 529 (2016)2. Defendant’s speculative claim3 of third-party police

'Finding that Officer Bogliole operated his police vehicle with a reckless disregard for the
safety of others and that the operation of the vehicle was a substantial factor in bringing about the
death of Scott Foster
2This paragraph has been incorporated virtually verbatim into the CJI
3See relatedly, Licausi, supra at 772-773: “The County Court providently exercised its.
discretion in precluding the defendant from presenting the testimony of a Suffolk County Police
Department Internal Affairs inspector who reviewed an investigation of the arresting officer's
conduct during the pursuit of the defendant, which testimony was offered to show that the officer
had a motive to fabricate his testimony. While extrinsic proof tending to establish a motive to
fabricate is never collateral and may not be excluded on that ground, a trial court may, as here, in
the exercise of its discretion, properly exclude such proof where it is too remote or speculative.”

}

PEOPLE V LICAUSI

Indictment No.: 02464-2009
Page 6
culpability does not detail the purported non-cumulative, newly discovered evidence4 which
underpinned the civil verdict that is sufficient to sever the causal nexus. The Court, in its
discretion, finds that defendant’s failure in this regard is procedurally fatal to his argument. CPL
§ 440.30[(4] [b].
Furthermore, considering the civil verdict standing alone to constitute newly discovered
evidence without reference to the proof adduced at the trial, is improper. Clearly; the verdict by
itself, which evinces only the result, would not qualify as evidence as contemplated by either the
statute or by Balan, supra.
With respect to defendant’s reliance on CPL § 440.20, his sentence, enhanced as a result
of his status as a persistent felony offender, was. implicitly found by the Appellate Division,
Second Department to have been authorized, legally imposed and valid as a matter of law.
Licausi, supra. CPL § 440.10 [2] [a]. In any event, defendant’s argument is without merit. See
PL § 70.08 [1] [a], [2] and [3] [b]. Consequently, the relief sought by defendant pursuant to CPL
§ 440.20 is denied.
Assignment of Counsel (CPL § 440.30 [5])
The Court declines to assign counsel for defendant in this matter as his motion is denied
in its entirety without need for a hearing. See County Law § 722 [4].
Accordingly, defendant’s motion is denied.
This shall constitute the Order and decision of the Court.

Dated: November 24, 2020

See Balan, supra, CPL §440.10[2][c].

t

ELT

Supreme (Eourt of life l^tate of New ^ork
Appellate dtuisum : ^econib dlaiurial department
M275862
SL/

LINDA CHRISTOPHER, J.

2021-00101

DECISION & ORDER ON APPLICATION

The People, etc., plaintiff,
v John Licausi, defendant.
(Ind. No. 2464-2009)

Application by the defendant pursuant to CPL 450.15 and 460.15 for a certificate
granting leave to appeal to this Court from an order of the Supreme Court, Suffolk County, dated
November 24, 2020, which has been referred to me for determination.
Upon the papers filed in support of the application and the papers filed in opposition
thereto, it is
ORDERED that the application is denied.

LINDA CHRISTOPHER
Associate Justice

March 3, 2021
PEOPLE v LICAUSI, JOHN

Additional material
from this filing is
available in the
Clerk's Office.

